APPENDIX

1a
APPENDIX A
_________
OP 19-0099
_________
IN THE SUPREME COURT OF THE
STATE OF MONTANA
_________
2019 MT 115
_________
FORD MOTOR COMPANY,
Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT,
ELIZABETH BEST,
Respondent.
_________
Filed: May 21, 2019
_________
ORIGINAL PROCEEDING:
Petition for Writ of Supervisory Control
In and For the County of Cascade,
Cause No. ADV-18-0247(b)
Honorable Elizabeth Best, Presiding Judge
COUNSEL OF RECORD:
For Petitioner:
Ian McIntosh, Marcia Davenport, Crowley Fleck,
PLLP, Bozeman, Montana

2a
Vaughn A. Crawford, Snell & Wilmer, Phoenix,
Arizona
For Plaintiff Charles S. Lucero:
Dennis P. Conner, Keith D. Marr, James R.
Conner, Conner & Marr, PLLP, Great Falls,
Montana
Daniel P. Buckley, Buckley Law Office, PC,
Bozeman, Montana
Decided: May 21, 2019
Filed:
/s/ Bowen Greenwood
Clerk
_________
Justice Laurie McKinnon delivered the Opinion and
Order of the Court.
¶1 Ford Motor Company (Ford) petitions this
Court for a writ of supervisory control following an
order of the Eighth Judicial District Court, Cascade
County, in Charles Lucero v. Ford Motor Company,
ADV-18-247(b), denying its motion to dismiss for
lack of personal jurisdiction. We accept supervisory
control, conclude Montana has specific personal
jurisdiction over Ford in this case, and accordingly
affirm the District Court’s order. This Opinion and
Order addresses the following issue:
Does
Montana
have
specific personal
jurisdiction over Ford regarding Lucero’s
design defect, failure to warn, and negligence
claims when the vehicle accident occurred in

3a
Montana but the vehicle was not designed,
manufactured, or first sold by Ford in
Montana?
FACTUAL AND PROCEDURAL
BACKGROUND
¶2 Markkaya Jean Gullett, a Montana resident,
drove a 1996 Ford Explorer. Ford did not design or
manufacture the Explorer in Montana.
Ford
assembled the Explorer in Kentucky and sold it for
the first time to a dealer in Washington. Over ten
years later, the Explorer was resold and registered in
Montana. In 2015, as Gullett drove the Explorer on
the interstate in Montana, one of the Explorer’s tires
suffered a tread/belt separation. The vehicle lost
stability, rolled into a ditch, and came to rest upside
down. Gullett died at the scene. Gullett’s personal
representative, Charles Lucero (Lucero), filed this
suit against Ford in Montana state district court on
behalf of Gullett and her heirs. The complaint
alleges three claims against Ford: strict liability for
design defect, strict liability for failure to warn, and
negligence. Lucero seeks compensatory and punitive
damages.
¶3 Defendant Ford moved to dismiss, arguing
Montana does not have specific personal jurisdiction
over Ford regarding Lucero’s claims and specifically
reasoning that there is no link between Ford’s
Montana contacts and Lucero’s claims. The District
Court disagreed and ultimately concluded it had
specific personal jurisdiction over Ford.
¶4 Ford now asks this Court to exercise
supervisory control over the District Court, conclude

4a
no specific personal jurisdiction exists, and dismiss
the case against Ford. Ford faults the District Court
for resting its analysis on Ford’s in-state contacts
and the fact that Gullett was injured in Montana,
arguing the court erred when it failed to identify a
link between Ford’s contacts with Montana and
Lucero’s claims. Lucero asserts the court’s exercise
of specific personal jurisdiction is appropriate in this
case.
STANDARD OF REVIEW
¶5 This Court has supervisory control over
Montana courts. Mont. Const. art. VII, § 2(2); see
also Great Falls Clinic LLP v. Mont. Eighth Judicial
Dist. Court, 2016 MT 245, ¶ 6, 385 Mont. 95,
381 P.3d 550.
Supervisory control is an
extraordinary remedy and we determine whether to
use it on a case-by-case basis. M. R. App. P. 14(3).
We may exercise supervisory control when
“urgency . . . mak[es] the normal appeal process
inadequate,” “the case involves purely legal
questions,” and “[c]onstitutional issues of state-wide
importance are involved.” M. R. App. P. 14(3)(b).
¶6 This Court reviews a personal jurisdiction
ruling de novo. Tackett v. Duncan, 2014 MT 253,
¶ 16, 376 Mont. 348, 334 P.3d 920.
DISCUSSION
¶7 We accept Ford’s petition for supervisory
control to resolve the issue of whether a Montana
state court may exercise specific personal jurisdiction
over Ford regarding Lucero’s design defect, failure to
warn, and negligence claims. Urgency makes the
normal appeal process inadequate in this case

5a
involving personal jurisdiction, because the District
Court must have power over the parties in a
proceeding to afford adequate relief. The question is
purely legal and of state-wide constitutional
importance: Ford’s due process rights are at issue
and this decision will clarify when persons injured in
Montana may appropriately file suit in Montana
courts. We accordingly accept supervisory control
and, for the following reasons, affirm the District
Court’s decision finding that Montana may exercise
specific personal jurisdiction over Ford in this case.
¶8 Personal jurisdiction—a court’s power over the
parties in a proceeding—may be general (allpurpose) or specific (case-linked). DeLeon v. BNSF
Ry. Co., 2018 MT 219, ¶ 7, 392 Mont. 446, 426 P.3d
1. “General personal jurisdiction is premised upon
the defendant’s relationship to the forum state, while
specific personal jurisdiction is premised upon the
defendant’s relationship to both the forum state and
the particular cause of action.” DeLeon, ¶ 7. Ford is
undisputedly not subject to general personal
jurisdiction in Montana. See BNSF Ry. Co. v.
Tyrrell, 581 U.S. ____, ____, 137 S. Ct. 1549, 1559
(2017). The question in this case, therefore, is
whether Montana may exercise specific personal
jurisdiction over Ford regarding Lucero’s design
defect, failure to warn, and negligence claims.
¶9 Specific personal jurisdiction exists when the
suit itself “arises from the specific circumstances set
forth in Montana’s long-arm statute, M. R. Civ. P.
4(b)(1).” Buckles v. Cont’l Res., Inc., 2017 MT 235,
¶ 15, 388 Mont. 517, 402 P.3d 1213. A Montana
court’s exercise of specific personal jurisdiction
“depends on whether the defendant’s ‘suit-related

6a
conduct’ created a substantial connection with”
Montana. Tackett, ¶ 19 (quoting Walden v. Fiore,
571 U.S. 277, 284, 134 S. Ct. 1115, 1121 (2014)). The
defendant’s relationship with the forum and the
litigation must relate to contact the defendant itself
created with the forum. Tackett, ¶ 32. Accordingly,
exercising specific personal jurisdiction over a
defendant is only appropriate when both the
defendant and the underlying controversy are
appropriately affiliated with Montana. Tackett, ¶ 19
(citing Daimler AG v. Bauman, 571 U.S. 117, 133,
134 S. Ct. 746, 758 (2014) (stating that specific
personal jurisdiction focuses on the “relationship
among the defendant, the forum, and the
litigation”)).
¶10 We apply a two-step test to determine whether
a Montana court may exercise personal jurisdiction
over a nonresident defendant. DeLeon, ¶ 10 (citing
Milky Whey, Inc. v. Dairy Partners, LLC, 2015 MT
18, ¶ 18, 378 Mont. 75, 342 P.3d 13; Tackett, ¶ 22).
First, we determine whether personal jurisdiction
exists under Montana’s long-arm statute, M. R. Civ.
P. 4(b)(1). Milky Whey, ¶ 18. If the first step is
satisfied, we then determine whether exercising
personal jurisdiction is constitutional; that is,
whether it conforms with “the traditional notions of
fair play and substantial justice embodied in the due
process clause.” Cimmaron Corp. v. Smith, 2003 MT
73, ¶ 10, 315 Mont. 1, 67 P.3d 258.
¶11 First, in considering whether specific personal
jurisdiction exists under Montana’s long-arm statute,
we turn to M. R. Civ. P. 4(b)(1) which provides, in
pertinent part: “[A]ny person is subject to the
jurisdiction of Montana courts as to any claim for

7a
relief arising from . . . the commission of any act
resulting in accrual within Montana of a tort action.”
M. R. Civ. P. 4(b)(1)(B). In this case, Lucero’s claims
for relief arise from Ford’s alleged actions of design
defect, failing to warn, and negligence. Lucero
alleges those actions resulted in the accrual of a tort
action in Montana: Gullett was driving the Explorer
in
Montana
when
the
accident
occurred.
Accordingly, we conclude Lucero’s claims for relief
arise from Ford’s actions allegedly resulting in a tort
action accruing within Montana. See Bunch v.
Lancair Int’l, Inc., 2009 MT 29, ¶ 40, 349 Mont. 144,
202 P.3d 784 (concluding the out-of-state defendant’s
conduct fell under Montana’s long-arm statute
because the alleged tort accrued in Montana).1 Step
1

Ford selectively quotes from our prior case law in Tackett
and Milky Whey to support its contention that its conduct here
does not satisfy subsection (b)(1)(B) of Montana’s long-arm
statute. See Tackett, ¶ 31 (accrual turns “on where the events
giving rise to the tort claims occurred, rather than where the
plaintiffs allegedly experienced . . . their injuries”), ¶ 34 (“[N]o
part of [the defendant’s] course of conduct forming the basis of
[the plaintiff’s] claims occurred in Montana.”), ¶ 35 (“Mere
injury to a forum resident is not a sufficient connection to the
forum, however.”); Milky Whey, ¶ 24 (“[A] tort does not accrue
in Montana when all acts giving rise to the claims occur in
another state.”).
Those cases, however, are factually distinguishable—Tackett
involved a monetary dispute where the only connection to
Montana was a party’s transfer of funds from his Montana
bank account, and Milky Whey involved a dispute over the
delivery of a product where the product never physically
entered Montana. See Tackett, ¶ 24; Milky Whey, ¶¶ 22-24. In
this case, the tort undoubtedly accrued in Montana: the
accident occurred while Gullett was driving on a Montana
roadway. Lucero’s claims of design defect, failing to warn, and
negligence against Ford, if proven, resulted in the accrual of a

8a
one is satisfied; Ford’s conduct falls under Montana’s
long-arm statute.
¶12 We next turn to the question of whether
exercising personal jurisdiction over Ford is
constitutional.
A Montana court’s exercise of
personal jurisdiction over a defendant is limited by
the Fourteenth Amendment’s Due Process Clause.
U.S. Const. amend. XIV. A defendant must have
“certain minimum contacts [with Montana] such that
the maintenance of the suit does not offend
‘traditional notions of fair play and substantial
justice.’ ” Tackett, ¶ 18 (quoting Walden, 571 U.S. at
283, 134 S. Ct. at 1121 (quoting Int’l Shoe Co. v.
Washington, 326 U.S. 310, 316, 66 S. Ct. 154, 158
(1945))). The concept protects a defendant from
having to litigate in a distant forum and allows a
defendant to reasonably anticipate where he may be
haled into court. World-Wide Volkswagen Corp. v.
Woodson, 444 U.S. 286, 297, 100 S. Ct. 559, 567
(1980).
The primary focus “is the defendant’s
relationship to the forum State.”
Bristol-Myers
Squibb Co. v. Superior Court of Cal., S.F. Cty.,
582 U.S. ____, ____, 137 S. Ct. 1773, 1779 (2017). To
determine if exercising personal jurisdiction over a
defendant comports with due process, we consider
whether: (1) the nonresident defendant purposefully
availed itself of the privilege of conducting activities
in Montana, thereby invoking Montana’s laws;
(2) the plaintiffs claim arises out of or relates to the
defendant’s forum-related activities; and (3) the
exercise of personal jurisdiction is reasonable.
tort in Montana and, accordingly, M. R. Civ. P. 4(b)(1)(B) is
satisfied in this case.

9a
Simmons v. State, 206 Mont. 264, 276, 670 P.2d
1372, 1378 (1983). Once the plaintiff demonstrates
that the first element is satisfied—that the
defendant ‘purposefully availed itself of the privilege
of conducting activities in Montana—a presumption
of reasonableness arises, which the defendant can
overcome only by presenting a compelling case that
jurisdiction would be unreasonable.
B.T. Metal
Works v. United Die & Mfg. Co., 2004 MT 286, ¶ 34,
323 Mont. 308, 100 P.3d 127.
¶13 First, we consider whether Ford purposefully
availed itself of the privilege of conducting activities
in Montana, thereby invoking Montana’s laws. “A
nonresident defendant purposefully avails itself of
the benefits and protections of the laws of the forum
state when it takes voluntary action designed to have
an effect in the forum.” B.T. Metal Works, ¶ 35. On
the other hand, “a defendant does not purposefully
avail itself of the forum’s laws when its only contacts
with the forum are random, fortuitous, attenuated,
or due to the unilateral activity of a third party.”
B.T. Metal Works, ¶ 35.
¶14 The stream-of-commerce theory explains that
a defendant may purposefully avail itself of the
privilege of conducting activities in the forum when
it “delivers its products into the stream of commerce
with the expectation that they will be purchased by
consumers in the forum State.”
World-Wide
Volkswagen, 444 U.S. at 298, 100 S. Ct. at 567. The
focus must remain on the defendant: “the
foreseeability that is critical to due process analysis
is not the mere likelihood that a product will find its
way into the forum State. Rather, it is that the
defendant’s conduct and connection with the forum

10a
State are such that he should reasonably anticipate
being haled into court there.”
World-Wide
Volkswagen, 444 U.S. at 297, 100 S. Ct. at 567.
¶15 Justice O’Connor, writing for a plurality of
four in Asahi Metal Indus. Co. v. Superior Court of
Cal., Solano Cty., 480 U.S. 102, 112, 107 S. Ct. 1026,
1032 (1987) (plurality), introduced what is now
known as the “stream of commerce plus” theory:
placing a product into the stream of commerce,
without more, does not demonstrate purposeful
availment. Instead, a defendant must engage in
some “additional conduct” establishing its “intent or
purpose to serve the market in the forum State,
[such as] designing the product for the market in the
forum State, advertising in the forum State,
establishing channels for providing regular advice to
customers in the forum State, or marketing the
product through a distributor who has agreed to
serve as the sales agent in the forum State.” Asahi,
480 U.S. at 112, 107 S. Ct. at 1032.2 A similarly2
Justice Brennan, also writing for four justices in Asahi,
rejected the stream of commerce plus approach, instead
supporting a less-demanding test: a defendant participating in
“the regular and anticipated flow of products from manufacture
to distribution to retail sale” is properly subject to jurisdiction
so long as the defendant is “aware that the final product is
being marketed in the forum State.” Asahi, 480 U.S. at 117,
107 S. Ct. at 1034 (Brennan, J., concurring in part and
concurring in judgment). Justice Stevens, joined by two
justices, stated that, instead of considering the defendant’s
awareness that a component could find its way into the forum
state, the court should evaluate “the volume, the value, and the
hazardous character” of the defendant’s product to determine
purposeful availment. Asahi, 480 U.S. at 122, 107 S. Ct. at
1037 (Stevens, J., concurring in part and concurring in
judgment).

11a
divided Court revisited the stream of commerce
theory in J. McIntyre Mach., Ltd. v. Nicastro,
564 U.S. 873, 882-85, 131 S. Ct. 2780, 2788-90 (2011)
(plurality), where Justice Kennedy, writing for a
plurality, adopted Justice O’Connor’s stream of
commerce plus approach. According to the stream of
commerce plus theory, a defendant’s mere awareness
that its product may enter the forum state is not
enough to demonstrate purposeful availment; the
defendant must also engage in some additional
conduct establishing its intent or purpose to serve
the forum state’s market. Asahi, 480 U.S. at 112,
107 S. Ct. at 1032.
¶16 We leaned towards Justice O’Conner’s “stream
of commerce plus” theory in Bunch v. Lancair Int’l,
Inc., when we reasoned that a defendant must do
more than place a product into the stream of
commerce in order to purposefully avail itself of the
privilege of conducting activities in Montana.
Bunch, ¶¶ 24, 28, 30, 55 (quoting Asahi, 480 U.S. at
112, 107 S. Ct. at 1032, for the proposition that “[t]he
placement of a product into the stream of commerce,
without more, is not an act of the defendant
purposefully directed toward the forum State”).
¶17 Applying the more stringent “stream of
commerce plus” theory, we conclude Ford
purposefully availed itself of the privilege of
conducting activities in Montana. Ford delivers its
vehicles and parts into the stream of commerce with
the expectation that Montana consumers will
purchase them. Further, Ford engages in additional
conduct establishing its intent to serve the market in
Montana. Ford advertises in Montana, is registered
to do business in Montana, and operates subsidiary

12a
companies in Montana.
Ford has thirty-six
dealerships in Montana. Ford also has employees in
Montana. It sells automobiles, specifically Ford
Explorers—the kind of vehicle at issue in this case—
and parts in Montana.
Ford also provides
automotive services in Montana, including certified
repair, replacement, and recall services.
Ford’s
conduct clearly establishes channels that permit it to
provide regular assistance and advice to customers
in Montana; Ford serves the market in Montana and
expects consumers to drive its automobiles in
Montana.
Ford’s conduct satisfies the morestringent stream of commerce plus theory, and we
accordingly find it purposefully availed itself of the
privilege of conducting activities in Montana, thereby
invoking Montana’s laws.
¶18 Second, we consider whether Lucero’s claims
arise out of or relate to Ford’s forum-related
activities. The Supreme Court recently clarified the
mandatory nature of this prong.
Due process
requires a connection between a defendant’s in-state
actions and a plaintiff’s claim: “the suit must arise
out of or relate to the defendant’s contacts with the
forum.” Bristol-Myers, 582 U.S. at ____, 137 S. Ct. at
1780 (internal quotations and alterations omitted).
Ford argues that, because it did not design or
manufacture the Explorer at issue in Montana and
because Ford first sold the Explorer outside of
Montana, Lucero’s claims do not arise out of or relate
to any of Ford’s Montana activities. Ford’s position
is supported by courts in other jurisdictions finding
no specific personal jurisdiction in similar factual
scenarios because of a lack of connection between the
plaintiffs’ claims and the defendants’ in-state

13a
contacts. 3 Lucero counters, urging us to find the
second due-process consideration satisfied because
the claims relate to Ford’s in-state activities.
Lucero’s position is also supported by courts in other
jurisdictions finding due process satisfied in similar
factual scenarios as long as a defendant has some
other connection to the forum state and could have
reasonably foreseen its product being used there.4
3

See, e.g., Sullivan v. Ford Motor Co., No. 16-cv-03505-JST,
2016 WL 6520174, at *3 (N.D. Cal. 2016) (finding no specific
personal jurisdiction over Ford in California where the plaintiff
was injured in California but Ford manufactured and first sold
the vehicle outside of the state because there was “every reason
to think that [plaintiff’s] injury would have occurred regardless
of Ford’s contacts with California”); Erwin v. Ford Motor Co.,
No. 8:16-cv-01322-T-24 AEP, 2016 WL 7655398, at *7 (M.D.
Fla. 2016) (finding no specific personal jurisdiction over Ford in
Florida where the accident occurred in Florida but where Ford
first sold the vehicle outside of the state because the plaintiff’s
injuries would have occurred regardless of whether or not Ford
had contacts with Florida); Pitts v. Ford Motor Co., 127 F. Supp.
3d 676, 686 (S.D. Miss. 2015) (finding no specific personal
jurisdiction over Ford in Mississippi where the plaintiffs
purchased their vehicle in Texas and crashed in Mississippi
because there was no “meaningful connection” between the
claims and Ford’s Mississippi contacts).
4

See, e.g., Bandemer v. Ford Motor Co., 913 N.W.2d 710, 71617 (Minn. Ct. App. 2018) (concluding plaintiff’s injury was
connected to Ford’s Minnesota contacts because Ford initiated
contacts with Minnesota and actively sought out business
through marketing in the state—Ford “should have reasonably
anticipated being haled into court in Minnesota”); Semperit
Technische Produkte Gesellschaft M.B.H. v. Hennessy, 508
S.W.3d 569, 583-84 (Tex. Ct. App. 2016) (concluding there was a
sufficient nexus between the plaintiff’s claims and Texas
because the defendant was engaged in the business of selling
the product in Texas—the fact that the particular product at
issue went through a distributor in another state was

14a
For the following reasons, we agree with Lucero and
conclude the second prong is satisfied here: Lucero’s
claims relate to Ford’s Montana activities.
¶19 In a products liability action where the
defendant purposefully availed itself of the privilege
of doing business in Montana based on the stream of
commerce plus theory, the question of whether the
plaintiff’s claims arise out of or relate to the
defendant’s forum-related activities presents a
challenging legal inquiry. The defendant’s out-ofstate conduct—placing the product into the stream of
commerce—technically led to the plaintiff’s in-state
use of the product and resulting claim. In that
sense, the defendant’s forum-related activities did
not directly result in the plaintiff’s use of the product
immaterial to the analysis); Thomas v. Ford Motor Co., 289 F.
Supp. 3d 941, 948 (E.D. Wis. 2017) (finding a connection
between the plaintiffs’ claims because Ford could have
reasonably foreseen that it would be subject to suit in
Wisconsin based on its willingness to serve and sell to
Wisconsin consumers, its pervasive marketing platforms, and
its accrual of benefits from Wisconsin consumers buying its
products); Antonini v. Ford Motor Co., 2017 U.S. Dist. LEXIS
135247, *8-9 (M.D. Penn. 2017) (holding that, because plaintiff
testified that she would not have purchased the vehicle had she
not seen Ford’s advertisements touting the safety of Ford’s
vehicles, Ford established a reasonably foreseeable connection
with Pennsylvania by enticing Pennsylvanians to buy and drive
Ford vehicles); Tarver v. Ford Motor Co., 2016 U.S. Dist. LEXIS
167363, *15-16 (W.D. Okla. 2016) (finding a nexus between
plaintiffs’ claims and Oklahoma because Ford’s contacts with
Oklahoma—advertising,
maintaining
dealerships,
and
providing regular service and product information to Oklahoma
consumers through its dealerships—combined with the fact
that Ford manufacturers products specifically meant for
interstate travel, established a sufficient connection).

15a
in that forum. However, due process does not
require a direct connection; it only requires that the
plaintiff’s claims “arise out of” or “relate to” the
defendant’s forum-related activities. Therefore, we
must determine when the plaintiff’s claims “arise out
of” or “relate to” the defendant’s Montana-related
activities when the defendant purposefully availed
itself of the privilege of conducting activities in
Montana based on the stream of commerce plus
theory.
¶20 “[I]f the sale of a product of a manufacturer or
distributor . . . is not simply an isolated occurrence,
but arises from the efforts of the manufacturer or
distributor to serve directly or indirectly, the market
for its product in other States, it is not unreasonable
to subject it to suit in one of those States if its
allegedly defective merchandise has there been the
source of injury . . . .”
World-Wide Volkswagen,
444 U.S. at 298, 100 S. Ct. at 567 (emphasis added);
see also Walden, 571 U.S. at 290, 134 S. Ct. at 1125
(“[A]n injury is jurisdictionally relevant only insofar
as it shows that the defendant has formed a contact
with the forum State.”). Where a plaintiff alleges a
nonresident defendant, acting outside of the forum,
placed a product into the stream of commerce that
ultimately caused harm in the forum, the “[f]low of a
manufacturer’s products into the forum . . . may
bolster
an
affiliation
germane
to
specific
jurisdiction.” See Goodyear Dunlop Tires Operations,
S.A. v. Brown, 564 U.S. 915, 927, 131 S. Ct. 2846,
2855 (2011).
Therefore, when the defendant
purposefully avails itself of the privilege of
conducting activities in a specific forum by placing a
product into the stream of commerce, the plaintiff’s

16a
claims will relate to the defendant’s forum-related
activities as long as the connection between the
defendant’s in-state conduct and the plaintiff’s claim
is sufficient enough to not offend due process.
¶21 At its core, due process is concerned with
fairness and reasonableness: Is it fair and reasonable
to ask an out-of-state defendant to defend a specific
lawsuit in Montana? Companies build vehicles
specifically for interstate travel. Irrespective of
where a company initially designed, manufactured,
or first sold a vehicle, it is fair to say that a company
designing, manufacturing, and selling vehicles can
reasonably foresee (even expect) its vehicles to cross
state lines. When a company engages in the design,
manufacture,
and
distribution
of
products
specifically designed for interstate travel, it is both
fair and reasonable to require the company to defend
a lawsuit in a state where the product caused injury
as long as the company has otherwise purposefully
availed itself of the privilege of doing business in
that state and if a nexus exists between the product
and the defendant’s in-state activity.
Where a
company first designed, manufactured, or sold a
vehicle is immaterial to the personal jurisdiction
inquiry, and focusing on those limited factors would
unduly restrict courts of this state from exercising
specific personal jurisdiction that comports with due
process over nonresident defendants in cases such as
this one.
¶22 Accordingly, we now hold that if a defendant’s
actions resulted in the accrual of a tort action in
Montana (that is, if M. R. Civ. P. 4(b)(1)(B) is
satisfied), and if the defendant purposefully availed
itself of the privilege of conducting activities in

17a
Montana under the stream of commerce plus theory,
the plaintiff’s claims “relate to” the defendant’s
forum-related activities if a nexus exists between the
product and the defendant’s in-state activity and if
the defendant could have reasonably foreseen its
product being used in Montana. In this case, M. R.
Civ. P. 4(b)(1)(B) is satisfied and Ford purposefully
availed itself of the privilege of conducing activities
in Montana under the stream of commerce plus
theory. Therefore, Lucero’s claims “relate to” Ford’s
Montana activities if a nexus exists between the
Explorer and Ford’s Montana activities and if Ford
could have reasonably foreseen the Explorer being
used in Montana.
¶23 A nexus exists between Gullett’s use of the
Explorer and Ford’s in-state activity.
Ford
advertises, sells, and services vehicles in Montana.
Ford makes it convenient for Montana residents to
drive Ford vehicles by offering maintenance, repair,
and recall services in Montana. Gullett’s use of the
Explorer in Montana is tied to Ford’s activities of
selling, maintaining, and repairing vehicles in
Montana. Further, Ford could have reasonably
foreseen the Explorer—a product specifically built to
travel—being used in Montana. We accordingly
conclude that Lucero’s claims “relate to” Ford’s
Montana activities.
¶24 Ford cites recent Supreme Court opinions
Bristol-Myers and Walden, reasoning they support
its argument that Lucero’s claims do not arise out of
or relate to its forum-related activities because it did
not design, manufacture, or first sell the Explorer in
Montana. Those cases, however, do not limit the

18a
specific personal jurisdiction analysis in the way
Ford argues.
¶25 In Bristol-Myers, plaintiffs filed a products
liability action against Bristol-Myers in California
state court, alleging they were injured by the
pharmaceutical company’s drug Plavix.
BristolMyers, 582 U.S. at ____, 137 S. Ct. at 1778. Over 600
plaintiffs participated in the action: 86 plaintiffs
alleged Plavix injured them in California, while 592
plaintiffs alleged Plavix injured them in other states.
Bristol-Myers, 582 U.S. at ____, 137 S. Ct. at 1778.
Bristol-Myers challenged the California court’s
jurisdiction over the claims arising from the out-ofstate injuries. Notably, the court’s jurisdiction over
the claims arising from the in-state injuries was not
at issue. The Supreme Court ultimately held the
California state court could not exercise specific
personal jurisdiction over the claims arising from
out-of-state injuries because the plaintiffs bringing
those claims “were not prescribed Plavix in
California, did not purchase Plavix in California, did
not ingest Plavix in California, and were not injured
by Plavix in California.” Bristol-Myers, 582 U.S. at
____, 137 S. Ct. at 1781. This case is distinguishable.
Gullett was injured while driving the Explorer in
Montana. Therefore, while Bristol-Myers did not
have sufficient California contacts regarding the
claims arising from out-of-state injuries, the Court’s
holding from Bristol-Myers does not impact our
analysis regarding whether Lucero’s claims relate to
Ford’s Montana contacts because Gullett was injured
while driving the Explorer in Montana.
¶26 In Walden, a police officer seized a large sum
of cash from airline passengers at an airport in

19a
Georgia, believing the cash was connected to drugrelated activity. Walden, 571 U.S. at 279, 134 S. Ct.
at 1119. The passengers filed suit in Nevada. The
Supreme Court ultimately held the officer was not
subject to personal jurisdiction in Nevada because he
lacked any connection to the state. The Court
recognized that in order for personal jurisdiction to
comport with due process, the “defendant’s suitrelated conduct must create a substantial connection
with the forum State” and the “relationship must
arise out of contacts that the ‘defendant himself’
creates with the forum State.” Walden, 571 U.S. at
284, 134 S. Ct. at 1121-22 (quoting Burger King
Corp. v. Rudzewicz, 471 U.S. 462, 475, 105 S. Ct.
2174, 2184 (1985)). “[T]he plaintiff cannot be the
only link between the defendant and the forum.
Rather, it is the defendant’s conduct that must form
the necessary connection with the forum State that
is the basis for its jurisdiction over him.” Walden,
571 U.S. at 285, 134 S. Ct. at 1122. The Court
reiterated that the specific personal jurisdiction
analysis must focus on the “relationship among the
defendant, the forum, and the litigation.” Walden,
571 U.S. at 291, 134 S. Ct. at 1126.
¶27 This case presents a much different factual
scenario. Unlike in Walden, where the plaintiffs
were the only connection between the defendant and
the forum state, here, Gullett is by no means the
only connection between Ford and Montana. Rather,
Ford’s own actions link its Montana contacts to
Lucero’s claims. Ford markets, sells, and services
vehicles in Montana, demonstrating a willingness to
sell to and serve Montana customers like Gullett,
who was injured while driving an Explorer in

20a
Montana. Focusing on the relationship between the
defendant (Ford), the forum (Montana), and the
litigation (Lucero’s design defect, failure to warn,
and negligence claims arising from a vehicle accident
that occurred in Montana), we conclude Lucero’s
claims relate to Ford’s in-state activities.
¶28 Third in our due process analysis, we consider
whether the exercise of personal jurisdiction is
reasonable.
After finding that a defendant
purposefully availed itself of the privilege of
conducting activities, we presume that the exercise
of personal jurisdiction is reasonable. A defendant
can only overcome that presumption by presenting a
compelling case that exercising jurisdiction would be
unreasonable. B.T. Metal Works, ¶ 34. Because we
found that Ford purposefully availed itself of
conducting activities in Montana under the stream of
commerce plus theory, we presume that exercising
personal jurisdiction is reasonable unless Ford can
overcome that presumption by presenting a
compelling case that jurisdiction would be
unreasonable.
¶29 The
reasonableness
analysis
generally
depends on an examination of factors that illustrate
the concept of fundamental fairness, such as: (1) the
extent of the defendant’s purposeful interjection into
Montana; (2) the burden on the defendant of
defending in Montana; (3) the extent of conflict with
the sovereignty of the defendant’s state; (4)
Montana’s interest in adjudicating the dispute; (5)
the most efficient resolution of the controversy; (6)
the importance of Montana to the plaintiff’s interest
in convenient and effective relief; and (7) the
existence of an alternative forum. Simmons Oil

21a
Corp. v. Holly Corp., 244 Mont. 75, 87-88, 796 P.2d
189, 196-97 (1990); see also World-Wide Volkswagen,
444 U.S. at 292, 100 S. Ct. at 564-65.
¶30 Applying those factors to this case, we
conclude Ford has failed to present a compelling case
that exercising jurisdiction over it would be
unreasonable: (1) Ford’s purposeful interjections into
Montana are extensive; (2) Ford did not represent
that it is burdened by defending in Montana;
(3) Ford did not point out any conflicts between
Montana and its home states; (4) Montana has a
strong interest in adjudicating the dispute,
considering the fact that the accident involved a
Montana resident and occurred on Montana
roadways; (5) the controversy may be efficiently
resolved in Montana, as it was the place of the
accident; (6) Montana’s court system is important to
Lucero’s interest in convenient and effective relief;
and (7) while alternative forums exist where Ford
would be subject to general personal jurisdiction,
those forums are less convenient considering the fact
that the accident occurred in Montana. Ford has
failed to overcome our presumption that exercising
jurisdiction is reasonable. The third due process
factor is satisfied.
CONCLUSION
¶31 We accept Ford’s petition for supervisory
control. This case regarding personal jurisdiction
presents urgent factors making the normal appeal
process inadequate. The issue presented is purely
legal and of state-wide constitutional importance.
We agree with the District Court’s determination
that a Montana court may exercise specific personal

22a
jurisdiction over Ford regarding Lucero’s design
defect, failure to warn, and negligence claims.
IT IS THEREFORE ORDERED Ford’s Petition for
a Writ of Supervisory Control is GRANTED and the
District Court’s order denying Ford’s motion to
dismiss for lack of personal jurisdiction is
AFFIRMED.
The Clerk is directed to forward a copy of this
Opinion and Order to all counsel of record in the
Eighth Judicial District Court Cause No. ADV-18247(b), and to the Honorable Elizabeth Best,
presiding District Judge.
/s/
Justice

We concur:
/s/
Chief Justice
/s/
/s/
/s/
/s/
/s/
Justices

23a
APPENDIX B
_________
MONTANA EIGHTH JUDICIAL DISTRICT
COURT, CASCADE COUNTY
_________
Cause No. ADV-18-0247(b)
_________
CHARLES S. LUCERO, as Personal Representative of
the Estate of Markkaya Jean Gullett, on Behalf of
the Heirs and Estate of Markkaya Jean Gullet,
Plaintiff,
vs.
FORD MOTOR COMPANY, a Delaware corporation;
THE GOODYEAR TIRE & RUBBER COMPANY, an Ohio
corporation; THE KELLY-SPRINGFIELD TIRE CORPORATION,
a Maryland corporation; LLOYD’S TIRE SERVICE, a
Washington corporation; TIRES PLUS, INC., a Montana
corporation; and DOES 1 through 10,

_________

Defendants.

ORDER DENYING DEFENDANT FORD
MOTOR COMPANY’S MOTION TO DISMISS
AND DEFENDANTS FORD MOTOR COMPANY
AND TIRES PLUS’S MOTION FOR CHANGE
OF VENUE
Defendant Ford Motor Company (Ford) moved to
dismiss the Complaint of Plaintiff Charles Lucero
(Lucero) on the basis of lack of personal jurisdiction.
Alternatively, it moves to change venue from
Cascade County to either Missoula or Mineral
County. (Docs. 3 and 4). Defendant Tires Plus, Inc.
(Tires Plus) joined the venue motion, arguing that
venue is proper in either Mineral or Sanders

24a
Counties. (Doc. 19). Defendant Goodyear Tire &
Rubber Company (Goodyear) takes no position.
Defendant Lloyd’s Tire Service (Lloyd) has not been
served.
Charles Lucero (Lucero) is the personal
representative of the estate of Markkaya Gullett
(Gullett).
He filed a complaint alleging strict
liability in tort against Ford for design defects and
failure to warn, negligence, and punitive damages.
As to Ford, at least in part, he contends that Ford’s
design was defective in that it did not address a safe
response to “detreading” of tires, which occurred in
this case.
He alleges strict liability against
Goodyear, Kelly-Springfield, and Lloyd’s, and
negligence against Lloyd’s and Tire’s Plus. (Doc. 1).
Gullett died in Montana, of injuries she suffered in
a one vehicle rollover crash on May 22, 2015, in
Mineral County. She was driving a 1996 Ford
Explorer, manufactured by Ford, a Delaware
corporation with its principal place of business in
Dearborn, Michigan. Ford sells cars and trucks in
all 50 states through dealerships by delivering them
into the stream of commerce. The Complaint alleges
that Ford knew some of its vehicles, including
identical vehicles to the vehicle in this case, would be
purchased in Montana and used by Montanans.
The specific vehicle involved in this case was not,
however, sold in Montana. It was assembled in
Kentucky, and sold by Ford to a dealership in
Washington, which sold it to an Oregon resident. It
was then ultimately purchased in 2007 and brought
to Montana. In 2009, Gullett’s mother bought it and
licensed it in Montana. Ford is registered to do

25a
business in Montana, has 36 dealerships in
Montana, and operates subsidiary companies in
Montana. On October 5, 2009, after the vehicle was
licensed and registered in Montana, Ford issued a
“Safety Recall” for the vehicle involved. It provided
recall services in Montana, including certified repair
and replacement. Gullett’s heirs and survivors were
Montana residents when she died.
ANALYSIS
I.

Jurisdiction.

The Court is required to apply a two-part test to
determine
whether
Montana
has
personal
jurisdiction over a nonresident defendant. Buckles v.
Cont’l Res., Inc., 2017 MT 235, ¶11, 388 Mont. 517,
402 P.3d 1213 (citation omitted). First, the Court is
to apply Rule 4 (b)(1), Mont.R.Civ.P., to determine if
it has personal jurisdiction.
Second, it must
determine whether exercise of personal jurisdiction
“comports with traditional notions of fair play and
substantial justice” required by the Due Process
Clause. BNSF Ry. V. Tyrrell, 137 S.Ct. 1549,
198 L.Ed. 2d 36 (2017), Fourteenth Amendment,
U.S. Const. A nonresident defendant must have
“certain minimum contacts with [Montana] such that
the maintenance of the suit does not offend
traditional notions of fair play and substantial
justice.” Tyrrell.
Personal jurisdiction can be general or specific.
A.

General Personal Jurisdiction

In Tyrrell, two non-resident plaintiffs sued
nonresident BNSF in a FELA case.
The U.S.

26a
Supreme Court held that the, “Due Process Clause
does not permit a State to hale an out-of-state
corporation before its courts when the corporation is
not ‘at home’ in the State and the episode-in-suitoccurred elsewhere.” Tyrrell, 137 S.Ct. at 1554,
198 L.Ed. 2d at 42. (emphasis in original). The focus
of the Court, pursuant to Tyrrell, is not solely the
defendant’s in-state contacts, but rather “an
appraisal of a corporation’s activities in their
entirety.” Id. at n. 20. Business within the forum
state is not enough, alone, to support general
personal jurisdiction.
The Plaintiff here concedes that the Court cannot
find general jurisdiction. The Court now turns to
specific jurisdiction.
B.

Specific Personal Jurisdiction

A Montana court can exercise personal jurisdiction
over an out-of-state defendant when the cause of
action meets the requirements of Montana’s longarm statute, Rule 4(b)(1), Mont.R.Civ.P. Buckles, ¶15
(citations omitted).
Rule 4(b)(1), Mont.R.Civ.P.,
provides that, “any person is subject to [Montana
personal jurisdiction] as to any claim for relief
arising from the doing. . . . of any of the following
acts:
(A) The transaction of any business within
Montana;
(B) The commission of any act resulting in
accrual within Montana of a tort action;

27a
(C) The ownership, use, or possession of any
property, or of any interest, therein situated
within Montana. . . .
Specific personal jurisdiction relies on the
defendant’s relationship with the forum state, and
whether its “suit-related conduct” with Montana
created a substantial connection to the State. Id.
(citation omitted). A defendant’s relationship with
Montana and the case “must arise out of contact that
the ‘defendant himself created with the forum.’ ” Id.
The Court must consider the following factors to
decide whether a defendant is subject to Montana’s
specific personal jurisdiction:
1)

Whether the defendant did some act or
consummate some transaction with the State
or perform an act purposefully availing itself
of conducting activities in the State, thus
invoking its law;

2)

Whether the claim arises out
defendant’s forum-related activities;

3)

Whether exercise of jurisdiction is reasonable.

of

the

Id. (citations omitted). If the Court finds that a
nonresident defendant failed to engage in any of the
enumerated activities contained in the long-arm
jurisdiction in Rule 4(B)(1), Mont.R.Civ.P., it must
decline jurisdiction. If the defendant has engaged in
any of the activities, the Court must analyze due
process by determining whether the suit arises out of
or relates to its activities in Montana. Id. (citations
omitted).

28a
The Court has specific personal jurisdiction under
Montana’s long-arm statute if a defendant business
conducts “substantial” business activity in Montana.
Bunch v. Lancair Int’l, Inc., 2009 MT 29, ¶18,
349 Mont. 144, 202 P.3d 784. In Great Plains Crop
Management, Inc. v. Tryco Mfg. Co., 554 F. Supp. at
1027 (D.C. Mont. 1983), the U.S. District Court
found specific jurisdiction where a nonresident
defendant advertised in a national magazine to
which Montana residents had access, mailed a
brochure to a Montana resident, sold farm
equipment to a Montana resident over the phone,
arranged to ship goods to Montana and solicited
sales from a Montana business.
In Lancair, the Montana Supreme Court found no
personal jurisdiction where the subject matter of the
case was an Oregon airplane crash of a plane
manufactured in Oregon. Although the defendant
had registered to do business in Montana, it had not
delivered products or advertised in Montana, and
only 14 of its planes were registered here. See also,
Grizzly Sec. Armored Exp., Inc. v. Armored Grp.,
LLC, 2011 MT 128, 360 Mont. 517, 255 P.3d 143
(specific jurisdiction even though defendant did not
solicit business or sell products in Montana, and
sales to plaintiff was not a significant part of
business because advertising reached Montana,
website showed business conducted throughout U.S.,
and defendant’s servicing of vehicles in this state.
Jurisdiction did not offend due process based on
substantial, continual and systematic activities in
the state).
Here, Ford’s contacts with Montana are many.

29a
1)

Ford committed multiple acts demonstrating
that it availed itself of conducting activities in
Montana and invoked Montana law. Ford
sells cars and trucks in all 50 states through
dealerships by delivering them into the stream
of commerce. Ford are purchased in Montana
and used by Montanans. Ford engaged in
substantial business in Montana. Ford is
registered to do business in Montana, has 36
dealerships in Montana, and operates
subsidiary companies in Montana.
On
October 5, 2009, after the vehicle in this case
was licensed and registered in Montana, Ford
issued a “Safety Recall” for that vehicle. Ford
provided recall services in Montana, including
certified repair and replacement.

2)

The claim must arise out of the defendant’s
forum-related activities.
This element is
mandatory. Bristol-Myers Squibb Co. v. Sup.
Ct. Cal., 137 S.Ct. 1773, 198 L.Ed. 2d 395
(2017).
The crash, and Gullett’s death,
occurred in Montana, in a wrecked Ford
vehicle. The tort accrued in Montana, because
damages were sustained here. Ford does
business selling and repairing its vehicles in
Montana. It sells the kind of vehicle involved
in this case in Montana. It advertises in
Montana. It sells Ford parts in Montana. Its
subsidiary, Ford Motor Credit, has contracts
with dealerships in Montana to provide lines
of credit, and with Montana consumers to
provide credit to enable purchases of Ford
vehicles. As in Grizzly Security, and unlike
Tyrrell, here, Ford solicits business, sells

30a
products in Montana, advertises in Montana,
and services its vehicles in Montana. The
Plaintiff alleges that Ford’s design of the
vehicle involved the Montana wreck was
defective, and caused the crash.
Ford’s
contacts with Montana, as set forth in the
Complaint, relate to the controversy at issue.
3)

Exercise of jurisdiction must be reasonable. It
is fair and reasonable under the facts here for
this Court to exercise jurisdiction. Witnesses
live here. The heirs live here.

Applying the plain language of Rule 4(b)(1),
Mont.R.Civ.P., Ford transacts business within
Montana, allegedly committed acts or omissions
resulting in accrual within Montana of a tort action,
and it owns, uses, or possesses property or interests
in property within Montana. Under these facts,
Rule 4(b)(1), Mont.R.Civ.P., applies, and Montana
has specific personal jurisdiction of Ford. Taking all
of the well-pled allegations in the Complaint as true,
Ford has not persuaded the Court that it lacks
specific personal jurisdiction over Ford.
Ford argues that the Court may not consider
whether it placed the product in nationwide stream
of commerce, and that the Court should focus on the
fact that it did not sell the specific vehicle in this
case in Montana. Under the “stream of commerce,”
theory a court has jurisdiction over an out-of-state
corporation when it “delivers its products into the
stream of commerce with the expectation that they
will be purchased by consumers in the forum State.”
World-Wide Volkswagen Corp. v. Woodson, 444 U.S.
286, 100 S.Ct. 559, 62 L.Ed.2d 490 (1980).

31a
In Asahi Metal Industry Co. v. Superior Court of
California, Solano County, 480 U.S. 102, 107 S.Ct.
1026 (1987), Justice O’Connor and three other
justices ratified the “stream of commerce plus”
theory, holding that while simply placing a product
into the stream of commerce is not enough to
establish minimum contacts, but that “additional
conduct” which shows “intent or purpose to serve the
market in the forum State” is enough. Justice
Brennan and three other justices endorsed a less
rigorous test, supporting a finding of jurisdiction
where a defendant participated in “the regular and
anticipated flow of products from manufacture to
distribution to retail sale” if the defendant knows the
final product will be marketed in the forum state. Id.
Under either of these tests, the Court has specific
personal jurisdiction over Ford.
However, Ford counters that under Bristol-Myers
Squibb, (supra), the Court does not have jurisdiction
in this case because it has an insufficient affiliation
with Montana, and its general connections are not
enough. In Bristol- Myers Squibb, the U.S. Supreme
Court found inadequate connections with California
where claims were brought by nonresident plaintiffs
in a mass products case concerning injuries caused
by the drug Plavix because Plavix was not prescribed
in California, the plaintiffs did not purchase or
ingest it there, and were not injured there. Likewise,
Walden v. Fiore, 571 U.S. 277, 134 S.Ct. 1115,
188 L.Ed. 2d 12 (2014), found no personal
jurisdiction where a Georgia law enforcement officer
searched airline passengers for the DEA in Georgia,
who then sued in Nevada. Walden is inapposite--- it

32a
did not involve a corporation doing business in every
state.
One of the critical facts in Bristol-Myers Squibb
was that the nonresident plaintiffs neither ingested
the drug nor were injured by it in California. BristolMyers Squibb at 1781. Here, in contrast, the vehicle
at issue was driven in Montana, the wreck, which
Plaintiff contends was caused by the design defect
regarding responsiveness to detreading, occurred in
Montana, and the injury occurred in Montana. Ford
sells, services, and markets its vehicles in Montana.
It finances those vehicles in Montana. It sold
vehicles identical to the vehicle involved in this case,
with the same design, in Montana. The facts in this
case align with the requirement set forth by Justice
Alito in Bristol-Myers Squibb: “What is needed-. . . .is a connection between the forum and the
specific claims at issue.” Id.
The facts here are unlike those in Walden v. Fiore,
where the plaintiffs sued an out-of-state defendant in
Nevada for a search in Georgia before the plane took
off heading for Nevada, and the harm did not occur
in Nevada.
That the plaintiffs were Nevada
residents was irrelevant to the analysis. Here, it is
undisputed that Gullett was a resident of Montana,
who was killed in Montana, as the result of an
alleged design defect caused by Ford.
This
occurrence in Montana accrued in Montana, and has
importance to Montana citizens, to whom Ford
marketed vehicles with the very same design.
Bristol-Myers Squibb is consistent with prior
jurisdictional precedent. In Burger King Corp. v.
Rudzewicz, 471 U.S. 462, 105 S.Ct. 2174 (1985), cited

33a
in Walden, the Court has “upheld the assertion of
jurisdiction over defendants who have purposefully
‘reach[ed] out beyond’ their State and into another
by, for example, entering a contractual relationship
that ‘envisioned continuing and wide-reaching
contacts’ in the forum state.” Walden at 285; Burger
King at 479. Walden repeated that “physical entry
into the State---either by the defendant in person or
through an agent, goods, mail or some other means--is certainly a relevant contact.” (citations omitted).
Walden, Id. Here, Ford cannot deny that it has
physically entered the State through its agent
dealers, through marketing of its goods (vehicles)
and through its subsidiary’s financing relationship.
Many of the cases cited by Ford are unhelpful with
respect to a specific personal jurisdiction analysis
because they relate to general jurisdiction, which the
Plaintiff concedes does not exist.
The Court
concludes, as have other courts on similar facts, that
Ford has the requisite “minimal contacts” with
Montana that are a prerequisite to jurisdiction.
Ford’s conduct has connected it to Montana in a
meaningful way. 1 The occurrence and the injury

1

See, Daimler AG v. Bauman, 571 U.S.117, 134 S.Ct. 746,
754, n. 5 (2014); Goodyear Dunlop Tires Operations, S.A. v.
Brown, 564 U,S. 915, 131 S.Ct. 2846, 2849 (2011); World-Wide
Volkswagon (supra), 444. U.S. 286, 297-298; TV Azteca v. Ruiz,
490 S.W. 3d 29, 54 (Tex. 2016), cert denied, 137 S.Ct. 2290
(2017); Griffin v. Ford Motor Co., A-17-CA-00442-SS, 2017 WL
3841890, at *2-4 (W.D. Tex, Sept. 1, 2017); Bandemer v. Ford
Motor Co., 915 NW 2d 710, A17-1182, 2018 WL 1902453 (Minn.
Ct. App., April 23, 2018); Thomas v. Ford Motor Co., 289
F.Supp. 3d 941, 946 (E.D. Wis 2017); Antonini v. Ford Motor
Co., 3:16-CV-2021, 2017 WL 3633287 at *6 (M.D. Pa. Aug. 23,

34a
occurred in Montana. Accordingly, Ford’s motion to
dismiss based on lack of jurisdiction is DENIED.
II.

Venue.

Ford also argues that Cascade County is not the
proper venue for this case, and that it should be tried
in either Missoula County (its registered place of
business in Montana) or in Mineral County, where
the wreck occurred. Tires Plus joins Ford in this
motion, but argues for Mineral County or Sanders
County (where many witnesses reside). (Doc. 19).
Tires Plus argues that Lucero is only a “nominal”
plaintiff and that, therefore, his residence should not
be considered. Tires Plus cites cases which stand for
the general proposition that personal representatives
bring claims on behalf of heirs but offers no authority
for the argument that the personal representative’s
residence is not a proper statutory factor.
Charles Lucero is the personal representative of
the decedent’s estate and is the named Plaintiff. He
is a resident of Cascade County. Section 25-2-122,
MCA provides that the proper place for trial where
the defendant is an out-of-state corporation in a tort
action is:
(a)

The county in which the tort was committed;

(b)

The county in which the plaintiff resides;

(c)

The county in which the corporation’s
resident agent is located, as required by law
(emphasis supplied).

2017); Tarver v. Ford Motor Co., CIV-16-548-D, 2017 WL
3527710 (W.D. Okla., August 16, 2017).

35a
Venue may be proper in more than one county.
§25-2-115, MCA. Under the plain language of §25-1122, MCA, Lucero properly filed suit in Cascade
County, his county of residence. The Montana
Supreme Court stated in Weiss v. State, 219 Mont.
447, 450, 712 P.2d 1315, 1317 (1986), that, pursuant
to §25-2-117, MCA, where there are two or more
defendants, the “proper place of trial for any
defendant is proper for all defendants.” A motion to
change venue under §25-2-117, MCA is only proper if
the complaint was filed in a county that “is a proper
place of trial for none of the defendants.” Farmers
Union Ass’n v. Paquin, 2009 MT 305, ¶12, 352 Mont.
390, 217 P.3d 74.
Defendants suggest that Lucero, the personal
representative, is not actually the real party in
interest, and that the analysis of Montana’s venue
statutes must be based on the place of residence of
the deceased. This is not the law. Under Hern v.
Safeco Ins. Co. of Illinois, 2005 MT 301, ¶¶32-35, 329
Mont. 347, 356, 125 P.3d 597, Lucero is the proper
plaintiff. (citing, §27-1-501, MCA, for the rule that a
cause of action for survival may be maintained by
the decedent’s “representatives or successors in
interest.”) Likewise, §27-1-513, MCA, makes the
personal representative the proper party to maintain
a wrongful death action. Rule 17, Mont.R.Civ.P.,
explicitly designates executors and administrators
real parties in interest. Rule 25, Mont.R.Civ.P.,
provides that a court may substitute a representative
as a party for a party who dies. Without a doubt,
Lucero is a proper plaintiff, in whose county of
residence venue is proper.

36a
Based on a plain reading of the venue statutes,
Cascade County is a proper venue. Defendants’
motions to change venue are DENIED.
ORDER
For the reasons set forth above,
1)

Ford’s Motion to Dismiss is DENIED; and

2) Ford’s and Tires Plus’s Motions to Change
Venue are DENIED.
DATED this 10th day of October, 2018.
/s/ Elizabeth A. Best
Elizabeth A. Best
District Court Judge
cc:

Dennis P. Conner/Keith D. Marr
Daniel P. Buckley
Marcia Davenport/Ian McIntosh
Vaughn A. Crawford
Stephen M. Johnson/Eric Biehl
David M. Strauss
Roger T. Witt/Andrew T. Newcomer

